WAIVER

Supreme Court of the United States

No. 19-459
Texas Brine Company, LLC v. Florida Gas Transmission Company,
LLC, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Lesacy Vulcan LLC

 

wT am a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will ~s led by a Bar member.
Signature ‘ Orsed®

 

 

 

Date: CG LADO 2 21
(Type or print) Name. B oy é. Cc h 2 ahwod a
& Mr. OMs. O Mrs. O Miss

Firm Poker Done/ don Feorhan Cold wel] VGerfwite PC
Address VO] A¥: Charles Ave, Suite J 600
City & State New Orleans, LA Zip T2170
Phone 49 O4- 5lob-52UL
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: “Jameg Garner, Bila. bor ner

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http:/www.supremecourtus.gov. Have the Supreme Court docket number available.
